              Audit Report




Social Security Numbers on Notices
  in the Online Retrieval System




      A-02-13-13040 | September 2013
MEMORANDUM


Date:      September 27, 2013                                               Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration could limit the display of Social Security numbers on
           notices sent to beneficiaries that were maintained in the Agency’s Online Retrieval System.

           Please provide within 60 days a corrective action plan that addresses each recommendation. If
           you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

           Attachment
Social Security Numbers on Notices in the Online Retrieval
System
A-02-13-13040
September 2013                                                          Office of Audit Report Summary

Objective                                Our Findings

To determine whether the Social          SSA could limit the display of SSNs on the majority of new notices
Security Administration (SSA) could      maintained in ORS and still reference notices by SSN in ORS.
limit the display of Social Security     SSA could format notices without SSNs by using a 5-A record.
numbers (SSN) on notices sent to         While SSNs would be included as part of the notice file, allowing
beneficiaries that were maintained in    them to be referenced by SSN in ORS, the SSN would not be
the Agency’s Online Retrieval System     displayed on the printed notice that is mailed to a beneficiary.
(ORS).
                                         SSA had not estimated the cost of removing SSNs from all notices
Background                               maintained in ORS. It had only produced estimates on the cost of
                                         removing SSNs from some of the notices maintained in ORS. In
SSA sends about 350 million notices to   FY 2012, SSA estimated it would incur 13 to 18 work years and
beneficiaries each year. Many of these   pay $2.3 to $3.3 million to remove the SSNs from the 123 million
notices include SSNs and are stored in   notices formatted by Target Notice Architecture, a system that
ORS. ORS allows SSA staff to review      formats most of the notices originated by the different notice-
notices when beneficiaries contact       generating programs. Additionally, SSA estimated it would incur
SSA to discuss the notices they          over $35 million in operational costs per year if it removed SSNs
received. Through ORS, staff can         from notices because staff would need additional time to look up
view, reprint, send, and save notices    the SSNs of beneficiaries who contact SSA to discuss their notices
addressed to beneficiaries.              but who do not know their SSNs.

                                         Our Recommendations

                                         1. Re-evaluate and document the assumptions used to develop the
                                            Agency’s cost estimates to remove SSNs on notices.

                                         2. Research cost-effective ways the Agency can limit SSNs on
                                            notices while still allowing for ORS’ current functionality.

                                         The Agency partially agreed with Recommendation 1 and fully
                                         agreed with Recommendation 2.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Notice Development ..................................................................................................................1
     Office of Management and Budget Guidance ...........................................................................1
     SSA’s Removal of SSNs from Some Notices............................................................................2
     SSA’s Reviews of SSNs on Notices ..........................................................................................2
Results of Review ............................................................................................................................3
     5-A Record .................................................................................................................................3
     Cost ............................................................................................................................................4
           Office of Systems Estimated Costs ......................................................................................4
           Office of Public Service and Operations Support Estimated Costs .....................................4
     Customer Service Concern ........................................................................................................5
     Other Federal Agencies’ Practices .............................................................................................5
           CMS .....................................................................................................................................6
           VA ........................................................................................................................................6
           IRS .......................................................................................................................................6
Conclusions ......................................................................................................................................7
Recommendations ............................................................................................................................8
Agency Comments ...........................................................................................................................8
OIG Response ..................................................................................................................................8
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – List of Social Security Administration System Notices ..................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)
ABBREVIATIONS
BNC                  Beneficiary Notice Control Number

CMS                  Centers for Medicare and Medicaid Services

COLA                 Cost-of-Living Adjustment

ELLEN                Encapsulated Logic for Line-Advance File Presentation Encoded Notice

FISMA                Federal Information Security Management Act

IRS                  Internal Revenue Service

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

OPSOS                Office of Public Service and Operations Support

ORS                  Online Retrieval System

PII                  Personal Identifiable Information

SSA                  Social Security Administration

SSN                  Social Security Number

TNA                  Target Notice Architecture

VA                   Department of Veterans Affairs

VBA                  Veterans Benefits Administration

VHA                  Veterans Health Administration




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) could limit the
display of Social Security numbers (SSN) on notices sent to beneficiaries that were maintained in
the Agency’s Online Retrieval System (ORS).

BACKGROUND
SSA sends about 350 million notices to beneficiaries each year. Per SSA, 191 million of the
notices mailed annually include a full SSN. Many of these notices are stored in ORS (see
Appendix B). Through ORS, staff can view, reprint, send, and save notices addressed to
beneficiaries.

Notice Development
Notices SSA sends to the public and stores in ORS may originate from notice-generating
programs operating in various SSA systems. The Target Notice Architecture (TNA) system
formats most of the notices originated by the different notice generating programs. The notice
generating programs provide TNA the text, language preference, and information for the notices.
TNA uses this information to format the notices. TNA passes the formatted notices to the
Encapsulated Logic for Line-Advanced Function Presentation Encoded Notice (ELLEN) system,
which finalizes the notices for mailing.

Electronic copies of most mailed notices are stored in ORS, which allows SSA staff to retrieve
notices should individuals contact SSA to discuss them. ORS references notices by the SSNs of
the individuals whom SSA sent the notices or, in the case of notices sent to employers, by the
Employer Identification Number. Notices include the SSN claim numbers so ORS can, in part,
determine under which SSN to store the document.

Office of Management and Budget Guidance
On May 22, 2007, the Office of Management and Budget (OMB) issued a memorandum 1
requesting that Federal agencies review the unnecessary collection and use of SSNs.
Specifically, it states that agencies should protect personally identifiable information (PII) in the
Government’s possession and avoid its breach. PII is information that can be used to distinguish
or trace an individual’s identity, such as their name, SSN, date and place of birth, or mother’s
maiden name.




1
 OMB, M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information
(May 22, 2007)



Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                         1
The Federal Information Security Management Act (FISMA) 2 requires that each Federal agency
have procedures in place to identify, report, and respond to security incidents, including
mitigating risks, before substantial damage occurs. In a July 25, 2007 memorandum, 3 OMB
required that agencies include in their 2007 FISMA reports their plans to eliminate the
unnecessary collection and use of SSNs.

SSA’s Removal of SSNs from Some Notices
Before OMB released its guidance, SSA removed the SSN from the annual title II cost-of-living
adjustment (COLA) and Social Security Statements. 4 Per a 2009 estimate, of the 350 million
notices sent annually, SSA removed the SSNs from 40 million title II COLA notices and
140 million Social Security Statements. In FY 2012, the Agency mailed 60 million COLA
notices and 24 million Social Security Statements.

SSA’s Reviews of SSNs on Notices
In response to OMB’s guidance, in 2007, SSA considered removing SSNs from additional
notices. It concluded that displaying the SSN on notices was necessary because it permitted
instantaneous identification of a beneficiary and the location of his/her records in SSA’s
computer systems. Additionally, removing the SSN would impede teleservice representatives’
ability to authenticate a caller.

SSA confirmed this conclusion in its Implementation Plan to Eliminate the Unnecessary Use of
SSNs, which was included as an appendix to its 2007 FISMA report. In the report, SSA stated
that including the SSN in notices assured the recipient that the information in the notice applied
to him/her, and it allowed SSA staff to efficiently associate documentation with the correct
numberholder. The report concluded that unless SSA adopted an alternative method of
distinguishing individuals, the display of SSNs on notices would remain necessary.

In 2009, the Agency reexamined the use of SSNs on notices. It focused on 1 notice system,
TNA, which, at that time, generated approximately 80 million notices, annually. The workgroup
discussed alternatives to using SSNs, such as using a truncated SSN or the Beneficiary Notice
Control Number (BNC), which is another unique identifier SSA uses on Social Security
Statement and COLA notices. The 2009 workgroup concluded that the use of the BNC was the
preferred alternative but had concerns with its use, including the following.

•      Based on SSA’s policy, staff cannot communicate personal information to callers who cannot
       provide an SSN. Callers could not use the BNC as a substitute for the SSN for this purpose.



2
    Public Law 107-347, 116 Stat. 2899, Title III, Section 301 et seq.
3
 OMB, M-07-19, FY 2007 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management (July 25, 2007).
4
    The Department of the Treasury removed the SSN from the face of all Social Security checks in 2003.



Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                         2
    If a notice recipient did not know his/her SSN, the individual would have to either call back
    with the number or visit a field office where an employee would need to conduct a search to
    obtain the SSN. This would increase the amount of calls made to the 800 Number and the
    number of individuals visiting their local office.

•   The BNC is not an alternative identifier. Notices going to the same individual from different
    notice systems or in different years would display a different BNC.

•   There was no direct way to use the BNC to query ORS. A cross reference between the BNC
    and the SSN would be necessary. This would add an additional step to many inquiries.

•   SSA has additional work related to use of the BNC on COLA notices each year after the
    notices are released. For example, mail clerks in SSA’s processing centers verify the names
    and SSNs associated with returned correspondence that includes a BNC but not an SSN.

Executive staff from SSA’s Offices of Operations, Systems, General Counsel, and Policy
discussed the workgroup analysis and decided SSA would not remove SSNs from additional
Agency notices.

RESULTS OF REVIEW
According to SSA, neither the Social Security Act nor its implementing regulations require that
the Agency place the SSN, in full or otherwise, on notices. As such, SSA can limit the display of
SSNs on the majority of new notices maintained in ORS and still reference notices by SSN in
ORS. For example, TNA could include processing instructions, known as a 5-A record, which
would suppress SSNs when notices are printed for mailing. While SSNs would remain within
the formatted notices, allowing staff to reference them by SSN in ORS, SSNs would not be
displayed on the printed notices mailed to beneficiaries.

SSA has produced estimates on the cost of removing SSNs from some notices, specifically those
formatted by TNA. In FY 2012, SSA estimated it would incur 13 to 18 work years and pay
$2.3 to $3.3 million to remove the SSNs from the 123 million notices formatted by TNA. SSA
did not provide us documentation detailing how it developed the estimated work years or related
costs. Additionally, SSA estimated it would incur over $35 million in operational costs,
annually, because staff would need additional time to look up the SSNs of beneficiaries who
contacted SSA to discuss a notice they received and did not know their SSNs. SSA used the
average length of a call to its national 800-number network as an estimate of how much
additional time staff would need to look up SSNs. It did not complete a study to determine the
time needed to staff these specific types of calls.

5-A Record
SSA could use a 5-A record to suppress the printing of SSNs on mailed notices while using the
SSN to reference the electronic version of the notice in ORS. Specifically, the 5-A record would
prompt the printer to ignore the command to print the SSN on the notice. SSA could also use the
5-A record to prompt the printer to only print a portion of the SSN on the notice. Since the SSN

Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                   3
would still be included in the notice files sent to ORS, it could use the SSN to track the electronic
version of the notices.

Cost
SSA had not estimated the cost of removing SSNs from all notices maintained in ORS.
However, it had produced estimates on the cost of removing SSNs from some notices.

Office of Systems Estimated Costs
In 2009, SSA’s Office of Systems estimated it would take 9.9 work years and cost $1.2 million
to remove SSNs from about 80 million notices formatted by TNA.

We asked SSA to update its estimate for this audit. In FY 2012, SSA estimated it would incur
13 to 18 work years and pay $2.3 to $3.3 million to remove the SSNs from the 123 million
notices TNA formatted. SSA did not provide us documentation that supported how it computed
this estimate.

Office of Public Service and Operations Support Estimated Costs
In 2009, SSA’s Office of Public Service and Operations Support (OPSOS) estimated that
removing SSNs from the 80 million notices TNA formatted would add 314 work years and cost
$25 million. Based on past workloads, SSA estimated that approximately 5 percent of the
individuals receiving notices, or 4 million people, would contact SSA and not know their SSNs.
SSA estimated that the absence of SSNs on printed notices would add 5 minutes to the
processing times for these 4 million beneficiaries. SSA staff would use the additional time to
perform SSN searches for the beneficiaries because they need to know an individual’s SSN
before facilitating service.

Per OPSOS, the additional 5 minutes processing time totaled 160 work years. When computing
its estimate, OPSOS multiplied the 160 work years by a field office/teleservice center overhead
rate of 1.96. SSA estimated it would take two people 5 minutes each, 10 minutes in total, to
perform SSN searches for those individuals who received a notice and did not know their SSNs.
OPSOS computed the task time of 5 minutes based on the average length of a call to SSA’s
national 800-number network.

For our review, SSA updated its estimate and stated it would take 8 additional minutes to process
transactions for about 4 million beneficiaries who contacted it and did not know their SSNs. It
indicated it would cost about 385 work years, or $35 million, if the Agency removed SSNs from
its notices. It noted the cost for field office employees to respond to inquiries increased. This,
combined with a higher processing time, increased the overall cost to process the inquiries.
Similar to its earlier estimate, SSA used the average length of a call to its national 800-number
network as an estimate of how much additional time staff would need to look up SSNs. It did
not complete a study to determine the time needed to staff these specific types of calls.




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                  4
Customer Service Concern
Per the 2009 workgroup report, OPSOS strongly recommended that SSA retain SSNs on notices.
In the 2009 report, and in a meeting we held with OPSOS for this audit, OPSOS stated that the
inclusion of SSNs on notices facilitated quicker service. SSA staff needs to know the SSN to
facilitate service. When individuals do not recall their SSNs, SSA staff has to take additional
steps, which takes additional time, to confirm the individuals’ SSNs before addressing the reason
they contacted SSA.

Additionally, OPSOS stated that removing SSNs from certain notices, such as benefit award
notices, could cause confusion when individuals are eligible to receive benefits from more than
one record, which occurs with some disability applicants and widows. The benefit award notices
serve as official documents of entitlement or non-entitlement to SSA benefits. Individuals need
to know to which record each notice refers, which the notice facilitates by including the SSN.

Additionally, OPSOS stated that earnings-related notices should include SSNs. SSA sends
earnings notices to employers and workers when they need to modify, correct, or reconcile
reported earnings. It is important for the employers and workers to know to which SSN the
questioned earnings are associated to ensure they make the right modifications, corrections, or
reconciliations.

OPSOS did not believe removing the SSN was cost-effective. Lastly, it did not believe the
inclusion of SSNs on notices increased identity theft. It knew of no reports that identified SSNs
on notices as being a source of stolen PII.

While OPSOS stated it did not think the inclusion of SSNs on notices was a PII loss risk, we
believe there is a risk. For example, SSA estimates it receives approximately 7.7 million pieces
of returned mail, annually, approximately 3 percent of the notices mailed each year.

SSA sends about 191 million notices each year that contain a full SSN. If SSA receives
3 percent of this mail as returned, it receives approximately 5.7 million pieces of returned mail
that contain SSNs, annually. SSA could not provide us with an estimate of the percentage of
notices with SSNs that do not reach the intended recipients and are not returned to SSA. Notices
sent to incorrect addresses are at risk of being intercepted by someone other than the intended
recipient. Notices intercepted by unintended recipients could provide SSA beneficiaries’ names,
addresses, and SSNs to individuals other than the SSN owners.

Other Federal Agencies’ Practices
We spoke with staff from the Centers for Medicare and Medicaid Services (CMS), Department
of Veterans Affairs (VA), and Internal Revenue Service (IRS) to determine the actions they have
taken to limit SSNs on their notices.




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                   5
CMS
CMS administers and manages the Medicare and Medicaid programs. CMS’ notices either
include only the last four digits of the SSN or do not include the SSN at all.

CMS maintains the correspondence it sends beneficiaries in databases, which allow staff to
search for the correspondence by a beneficiaries’ name, date of birth and address as well as the
last four digits of their Health Insurance Claim Number. The Health Insurance Claim Number is
CMS’ unique identifier, which CMS bases on the beneficiary or wage earner’s SSN. The Health
Insurance Claim Number also includes a suffix, which describes the relationship between the
beneficiary and wage earner.

VA
The VA includes the Veterans Health Administration (VHA) and Benefits Administration
(VBA). VHA administers veteran health care services, and VBA administers veteran benefit
programs.

VHA includes the full SSN on Explanation of Benefit notices sent to veterans, while most other
notices to veterans use the last four digits of the SSN. VHA does not include the SSN on
correspondence sent to veterans’ family members. VHA maintains the information in mailed
notices in a database. A user can search the database for veteran notices by a veteran’s full SSN
and name.

VBA identifies veterans and their beneficiaries by their claim number, which is generally a
veteran’s SSN. 5 VBA uses the full claim numbers in some of its notices to veterans and
beneficiaries and uses the last four digits of the claim number or another identifier, such as the
Department of Defense identification number, for its active members.

VBA’s notices are stored in Virtual VA and Veteran Benefit Management System. A user can
search the Virtual VA to retrieve notices by a file number, which may be the SSN. The Veteran
Benefit Management System allows users to search for notices using a beneficiaries first and last
name, date of birth, or claim number.

IRS
While the IRS includes SSNs on most of the notices it mails annually, it has an SSN elimination
and reduction program under which steps have been taken to remove SSNs from notices. For
example, over 60 different non-payment IRS notices contained the last four digits of an SSN or
no SSN at all. The IRS removed SSNs on certain taxpayer, collection, and enforcement
correspondence. Most recently, the IRS introduced new regulations that will allow certain



5
 The beneficiary’s claim number is generally the SSN for veterans. If an individual became a veteran prior to the
1970’s, VA uses another number as a claim number.



Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                                   6
companies and organizations to issue correspondence to individual tax filers using a truncated
taxpayer identification number, which will only show the last four digits of the individual’s SSN.

The IRS does not store copies of its notices electronically. The IRS can store files of notices it
sends, but it is not doing so. The IRS maintains others records on its systems regarding notices
that it has mailed.

CONCLUSIONS
According to SSA, neither the Social Security Act nor its implementing regulations require that
the Agency place the SSN, in full or otherwise, on notices.

Accordingly, SSA has taken some steps to limit SSNs on its notices. For example, it has
removed SSNs from the annual COLA notices and Social Security Statements. We concluded
that SSA could remove SSNs from additional notices and not limit its ability to store and retrieve
the notices by SSN. Using 5-A records, SSA can maintain SSNs on the electronic version of its
notices but suppress them on the printed versions mailed to beneficiaries.

SSA estimated it would incur 13 to 18 work years and pay $2.3 to $3.3 million to remove the
SSNs from 123 million of its notices. It also estimated that removing the SSNs from these
notices would add an additional $35 million in operational costs. SSA did not provide us with
documentation that explained all of the assumptions used for the former estimate and did not
complete a study of the actual time needed to staff calls from beneficiaries who do not know
their SSNs for the latter estimate.

While SSA stated that including SSNs on notices is a timesaving operational necessity, we
believe it risks the release of SSNs to individuals other than the SSN’s owner. Notices sent to an
address that does not belong to the beneficiary are at risk of interception by someone other than
the intended recipient. Notices that unintended recipients intercept could provide SSA
beneficiaries’ names, addresses, and SSNs to individuals other than the numberholders.

While SSA told us it did not know of reports of fraudsters obtaining PII from its notices,
beneficiaries who have been victims of fraud are often unsure how fraudsters gained access to
their PII. For example, thousands of beneficiaries have had their directly deposited Social
Security benefit payments redirected from their banks accounts to accounts criminals controlled.
While many of these beneficiaries admitted to providing individuals posing as lottery agents or
government employees their personal information, others stated that they did not recall releasing
their information to anyone. An SSA notice could provide a fraudster with the name, address,
and SSN of beneficiaries, which may be enough information to commit financial crimes in the
beneficiary’s name.

We understand that SSA has implemented numerous improvements in how it assigns SSNs.
Unfortunately, once SSA assigns an SSN, it has no authority to control the collection, use, and
protection of these numbers by other entities. Our audit and investigative work have shown that
the more SSNs are unnecessarily used, the higher the probability that they could be used to
commit crimes. While SSA cannot control the collection and use of SSNs by other entities,


Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    7
which may present a greater risk to the integrity of SSNs than the inclusion of SSNs in SSA’s
notices, we believe it is important to address any known risk, especially if that risk is under the
Agency’s control.

We believe the Agency should explore ways of protecting the integrity of the SSN by limiting
SSNs on the 350 million notices it mails annually. SSA could truncate the SSNs on notices or
remove them entirely wherever possible. SSA can begin to lower significantly the number of
notices with SSNs, and the risk of releasing SSNs to individuals other than the SSN’s owner, by
eliminating the SSN from its highest volume notices. For example, SSA could eliminate
9.6 million SSNs from notices if it eliminated SSNs from the SSA-8151 Supplemental Security
Income Cost-of-Living Adjustment Notice of Change. See Appendix B for a list of SSA’s notices
and the estimated annual volume for each notice.

RECOMMENDATIONS
We recommend that SSA:

1. Re-evaluate and document the assumptions used to develop the Agency’s cost estimates to
   remove SSNs on notices.

2. Research cost-effective ways the Agency can limit SSNs on notices while still allowing for
   ORS’ current functionality.

AGENCY COMMENTS
The Agency partially agreed with Recommendation 1 and fully agreed with Recommendation 2.
For Recommendation 1, SSA agreed to document the assumptions it used to develop cost
estimates to remove SSNs on notices. However, it disagreed with re-evaluating its assumptions.
It stated that it did not capture the time it takes for staff to handle calls from beneficiaries who do
not know their SSNs, and it did not have the resources to conduct a study of the actual time
needed. For the full text of the Agency’s comments, see Appendix C.

OIG RESPONSE
While documenting the assumptions used to develop the cost estimates is helpful, the more
critical action needed is the re-evaluation of the assumptions used. SSA used the average length
of a call to its national 800-number network as an estimate of how much additional time staff
would need to handle these transactions. SSA did not provide us with an explanation as to why
it assumed the average length of a call to the 800-number was a good estimate of the time needed
to process transactions with individuals who do not recall their SSNs. While we understand SSA
may need to use assumptions due to a lack of resources to study the actual time needed, SSA
should have some basis of fact as to why its assumptions produce a good estimate. Without an
estimate more closely aligned to the actual time needed, SSA’s estimated costs may overstate the
actual costs, and SSA may make a decision on the removal of SSNs from notices with inaccurate
information.


Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                     8
                                        APPENDICES




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed pertinent sections of Office and Management and Budget (OMB) memorandum
    M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
    Information, May 22, 2007, and the Social Security Administration’s (SSA) Response in its
    2008 Federal Information Security Management Act Implementation Plan to Eliminate the
    Unnecessary Use of SSNs.

•   Reviewed Office of the Inspector General (OIG) December 21, 2012 report on Controls over
    the Enrollment Process with the Direct Express® Debit Card Program (A-15-12-21273).
    The report questioned the need to include SSNs on notices.

•   Obtained and reviewed a comprehensive list of Office of Systems’ notices.

•   Interviewed, and reviewed documentation from, several SSA components in Policy,
    Operations, Communications, and Systems.

•   Interviewed and researched other Federal agencies, such as the Centers for Medicare and
    Medicaid Services, Department of Veterans Affairs, and Internal Revenue Service to inquire
    about their best practices.

We conducted our audit work in the New York Audit Division, New York, between September
2012 and May 2013. The entities audited were the Office of Systems under the Office of the
Deputy Commissioner for Systems and the Office of Operations under the Office of the Deputy
Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and conduct the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)             A-1
Appendix B – LIST OF SOCIAL SECURITY ADMINISTRATION
             SYSTEM NOTICES
 Table B–1: The Social Security Administration’s (SSA) System Notices that Contain the
                             Full Social Security Number
                                               Estimated Annual         Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?

         Address Information Request            Annual volume is                    Y
                SSA L-2001                        not available

          Advance Fugitive Felons                     4,455                         Y
               Advance Notice                       324,900                         Y
      Amended Request to be Selected            Annual volume is
                                                                                    Y
              as Payee SSA-11                     not available
         Amendment Supplemental
        Security Income Statement of                 125,280                        Y
      Income and Resources SSA 8010
                    Appeal                              520                         Y
          Application for Help with
        Medicare Prescription Drugs
                                                     207,740                        Y
           SSA-1020 (Application
          Exception Development)
          Application for Help with
        Medicare Prescription Drugs
                                                    1,866,020                       Y
           SSA-1020 (Application
                  Statement)
          Application for Help with
        Medicare Prescription Drugs                    6,500                        Y
          Cover SSA-1020 (Cover)
          Application for Help with
        Medicare Prescription Drugs                  223,340                        Y
         Receipt SSA-1020(Receipt)
           Automated Job Stream                      207,985                        Y
           Automated Job Stream
       Automatic Earnings Reappraisal               4,815,142                       Y
             Operations System
                                                 See Modernized
             Auxiliary Beneficiary               Claim System’s                     Y
                                                     Volume



Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    B-1
                                               Estimated Annual         Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?
                                               Annual volume is
           Bank Letter SSA-L 2001                                                   Y
                                                  not available
       Beneficiary Identification Code
                                                     397,924                        N
                      T
        Benefit Termination Month
       Beneficiary Identification Code               315,677                        Y
                  T Medicare
      Benefit Verification Notice/Proof
                                                    48,000,000                      N
               of Income Letter
                Call-in Letter                       216, 414                       Y
      Cost of Living Adjustment SSA
                                                      15,014                        Y
                     8166
         Consent to Representative              Annual volume is
                                                                                    Y
             Payment SSA-4164                     not available
      Critical Payment System Notices                77,520                         Y
             Debt Management-
            Administrative Wage                       54,000                        N
                 Garnishment
        Debt Management –External
                                                     165,492                        N
            Collection Operation
       Decentralized Correspondence
                                                    6,505,686                       N
           Employee SSA-L-3365
       Decentralized Correspondence
                                                    1,014,024                       N
           Employer SSA- L-4002
       Decentralized Correspondence
                                                     462,153                        N
        Self Employed SSA L 2765
                                                 See Modernized
         Disability Insurance Benefit            Claim System’s                     Y
                                                     Volume
         Disabled Working Individual
                                                      13,085                        Y
                  Medicare
         Earnings After Death Report
                                                      49,191                        N
           Employee SSA-L-3044
                                               See Earnings After
         Earnings After Death Report
                                                 Death Report                       N
           Employer SSA-L-4112
                                              Employee’s Volume
      Earnings After Death Report Self
                                                       2,370                        N
          Employed SSA-L-3400



Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    B-2
                                               Estimated Annual         Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?
         Earnings Record Information
                                                     193,893                        Y
                L-191&L-192
         Educational Correspondence
                                                      11,600                        Y
                  Medicare
                                                 See Modernized
           End Stage Renal Disease               Claim System’s                     Y
                                                     Volume
        Extended Period of Eligibility               111,040                        Y
        Extended Period of Eligibility
          Terminating, Attainments,
                                                     110,979                        Y
         Transfers, and Terminations
                     System
         Fee for Service Letter to the
                                                     178,200                        N
            Beneficiary SSA L-251
      Folder Document Output System
                                                    5,000,000                       N
                   Freeforms
             Foreign Enforcement
                                                      33,770                        N
          Questionnaires SSA 7161
             Foreign Enforcement
                                                     308,384                        N
          Questionnaires SSA 7162
                  Garnishment                       1,253,708                       Y
      Important Information SSA-8166                5,572,832                       Y
           Income Related Monthly
      Adjustment Amount Benefit Rate                1,586,763                       Y
                    Increase
           Income Related Monthly
                                                     603,825                        Y
          Adjustment Amount Daily
                Informal Denial                     1,537,800                       Y
          Initial Claim Appointment
                                                    1,100,232                       Y
           Confirmation Concurrent
          Initial Claim Appointment
                                                    1,491,780                       Y
             Confirmation Title II
          Initial Claim Appointment
                                                    1,004,316                       Y
            Confirmation Title XVI
          Initial Claim Appointment
                                                       9,948                        Y
           Confirmation Title XVIII
      Internet 1020 Online Application
                                                    3,076,812                       Y
        for Part D Medicare Subsidy



Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    B-3
                                               Estimated Annual         Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?
        Internet Benefit Verification
                                                     784,000                        N
                    Letter
      Manual Adjustment, Credit, and
                                                    2,710,671                       Y
               Award Process
            Medical Termination                       12,000                        Y
        Medicare Savings Programs
                                                      12,480                        Y
                  Exception
         Medicare Subsidy Railroad                    18,781                        Y
            Medicare Supplement
                                                    3,076,812                       Y
               Determination
              Mid-Year Mailer                       1,582,721                       N
      Mobile Knowledge Based Wage
                                                     200,337                        Y
                  Reporting
         Modernized Claim System                    7,392,068                       Y
         More Information from the
                                                     180,000                        Y
            Claimant SSA-L732
        National Change of Address                  1,224,435                       N
                 Non-Select                           17,100                        Y
        Potential Private Retirement
                                                    1,100,000                       N
             Benefit Information
       Post Entitlement Confirmation                 443,556                        Y
         Recovery and Collection of
                                                    3,758,272                       Y
            Overpayment Process
        Recovery of Overpayments,
                                                    1,963,054                       Y
         Accounting, and Reporting
        Representative Payee Report
                                                    2,936,539                       N
      Children SSA-6230 First Request
        Representative Payee Report
        Children SSA-6230 Second                     932,113                        N
                   Request
        Representative Payee Report
          Children SSA-6230 Final                     18,408                        N
                   Request
        Representative Payee Report
                                                    2,472,802                       N
           SSA-623 First Request
        Representative Payee Report
                                                     660,461                        N
          SSA-623 Second Request
        Representative Payee Report
                                                      36,441                        N
           SSA-623 Final Request

Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    B-4
                                               Estimated Annual         Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?
        Representative Payee Report
                                                     402,332                        N
                 SSA-6234
       Request to be Selected as Payee
                                                     976,004                        Y
                   SSA-11
                                                 See Modernized
         Retirement Insurance Benefit            Claim System’s                     Y
                                                     Volume
       Returned Check Action Program                 300,391                        Y
        Self-Employment Adjustment
                                                     280,000                        Y
         Adverse Action SSA L-5114
        Special Veterans Benefit Cost-
       of- Living Adjustment Notice of                 1,530                        Y
        Change in Payment SSA-8181
        Special Veterans Benefit Cost-
                                               0 because of COLA
        of- Living Adjustment Notice                                                Y
                                                    increase
            Plan Action SSA-8185
        Supplemental Security Income
         Cost- of- Living Adjustment                9,618,587                       Y
        Notice of Decision SSA-8151
        Supplemental Security Income
         Cost- of- Living Adjustment
                                                     509,671                        Y
       Notice of Planned Action SSA-
                     8155
                  Step Parent                          1,838                        N
          Subsequent Application for
        Reporting a Change that May
         Affect Your Extra Help with                1,098,240                       Y
       Medicare Prescription Drug Plan
               Costs SSA-1026
          Subsequent Application for
        Reporting a Change that May
         Affect Your Extra Help with
                                                       3,900                        Y
       Medicare Prescription Drug Plan
       Costs Application Cover Notice
                  SSA-1026
          Subsequent Application for
        Reporting a Change that May
         Affect Your Extra Help with
                                                      11,440                        Y
       Medicare Prescription Drug Plan
       Costs Application Receipt SSA-
                     1026

Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    B-5
                                               Estimated Annual         Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?
          Subsequent Application for
        Reporting a Change that May
         Affect Your Extra Help with                  61,620                        Y
       Medicare Prescription Drug Plan
          Costs Exception SSA-1026
        Supplemental Security Income
       Amended Print Application and
                                                     701,640                        Y
          Amended Print Application
                  Summary
        Supplemental Security Income
                                                    1,981,080                       Y
             Appeals Documents
        Supplemental Security Income
                                                     214,560                        Y
             Application Receipt
        Supplemental Security Income
                                                     504,360                        Y
                 Cover Notice
        Supplemental Security Income
                                                    1,317,960                       Y
       Evidence Request Cover Notice
        Supplemental Security Income
         Follow-up Evidence Request                  146,880                        Y
                 Cover Notice
        Supplemental Security Income
                                                     340,000                        Y
       Informational Notice SSA-8199
        Supplemental Security Income
                                               Annual volume not
         Monthly Wage Verification                                                  Y
                                                   available
                   Receipt
        Supplemental Security Income
                                                Annual volume is
       Notice of Appointment 1619(B)                                                Y
                                                  not available
                 SSA-L-3075
        Supplemental Security Income
                                                Annual volume is
       Notice of Appointment SSA L-                                                 Y
                                                  not available
                    3074
        Supplemental Security Income
                                                    4,426,424                       Y
        Notice of Change SSA-8151-
        Supplemental Security Income
                                                    4,830,218                       Y
        Notice of Decision SSA-8165
        Supplemental Security Income
        Notice of Change in Payment                 1,119,452                       Y
                  SSA-8100




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    B-6
                                               Estimated Annual         Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?
       Supplemental Security Income
        Notice of Disapproved Claim                  765,862                        Y
                  SSA-8030
       Supplemental Security Income
       Notice of Planned Action SSA-                4,656,344                       Y
                     8155
       Supplemental Security Income
      Overpayment-Current Pay SSA-                   932,596                        Y
                     8170
       Supplemental Security Income
       Overpayment-Non-Current Pay
                                                      32,782                        Y
      and in Living Arrangement SSA-
                     8171
       Supplemental Security Income
       Overpayment-Non-Current Pay                   353,830                        Y
                  SSA-8172
       Supplemental Security Income
                                                    1,187,566                       Y
        Payment Decision SSA-8025
       Supplemental Security Income
            Print Application and                   9,329,400                       Y
            Application Summary
       Supplemental Security Income
      Referral for Other Benefits SSA-                50,760                        Y
                     8050
       Supplemental Security Income
      Referral for Other Benefits SSA-               309,600                        Y
                     8051
       Supplemental Security Income
                                                      46,080                        Y
            Rental Subsidy Form
       Supplemental Security Income
                                                Annual volume is
           Request for Information                                                  Y
                                                  not available
         Posteligibility SSA-L-8003
       Supplemental Security Income
                                                Annual volume is
           Request for Information                                                  Y
                                                  not available
         Posteligibility SSA-L-8004
       Supplemental Security Income
       Statement of Claimant or Other                215,640                        Y
                   Person
       Supplemental Security Income
                                                      19,800                        Y
             Witness Statement


Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                    B-7
                                              Estimated Annual          Is it stored in the Online
                Name of Notice
                                                    Volume                  Retrieval System?
                                               See Modernized
         Survivor Children Insurance           Claims System’s                      Y
                                                    Volume
          T16 Disability Transmittal                    0                           Y
                 Tax Levy                            14,159                         Y
                                              See Internet Benefit
         Telephone Knowledge Based
                                              Verification Letter’s                 Y
               Wage Reporting
                                                    Volume
              Title II Closeout                     886,920                         Y
              Title II Redesign                   22,999,736                        Y
            Title XVIII Closeout                    105,996                         Y
            Verification Request                    191,360                         Y
        Widower’s Insurance Benefit
        Retirement Insurance Benefit                   60,000                       Y
                    Notice
                   Widows                            78,384                         Y
        Written Verification of Wages           Annual volume is
                                                                                    Y
       from an Employer SSA L-4201                not available
                                               See Young Children
      Young Children Earnings Record
                                                Earnings Record                     N
       Employee Notice SSA L-3232
                                               Employer’s Volume
      Young Children Earnings Record
                                                       17,173                       N
       Employer Notice SSA L-3231
      Young Children Earnings Record
                                                       2,050                        N
        Self Employed SSA L-3241

  Table B–2: SSA’s System Notices that Do Not Contain the Full Social Security Number
                                                                 Is it stored in
                                                                                       Is the SSN
                                            Estimated             the Online
            Name of Notice                                                          truncated on the
                                          Annual Volume            Retrieval
                                                                                         notice?
                                                                    System?
      Application for Help With
                                                                                     Y - the last four
   Medicare Prescription Drugs SSA-           2,600,000                 N
                                                                                          digits
           1020-OCR-SM
      Card Limit Denial Notice for
                                                 216                    N                   N
             Annual Limit
     Card Limit Denial for Lifetime
                                                 252                    N                   N
                 Limit



Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                        B-8
                                                                 Is it stored in
                                                                                       Is the SSN
                                            Estimated             the Online
            Name of Notice                                                          truncated on the
                                          Annual Volume            Retrieval
                                                                                         notice?
                                                                    System?
       Fee for Service Letter to
                                                1,300                   N                   N
    Representative Payee SSA-L252

          Fraud Denial Notices                   216                    N                   N

    IRS/SSA Reconciliation Notice-
    SSA Has No Record of Employer              286,208                  N                   N
         Report (First Request)
    IRS/SSA Reconciliation Notice-
    SSA Has No Record of Employer              160,432                  N                   N
       Report (Second Request)
    IRS/SSA Reconciliation Notice-
     Discrepancy Between IRS and                97,767                  N                   N
      SSA Records (First Request)
    IRS/SSA Reconciliation Notice-
     Discrepancy Between IRS and                48,882                  N                   N
     SSA Records (Second Request)

     Long Term Fraud Delay Notice                  6                    N                   N

                                              600 Initial
       Resubmission Notice Email                                        N                   N
                                            300 Follow-up
                                           5400 Initial 3500        Y-Initial
      Resubmission Notices Paper                                                            N
                                              Follow-Up            N-Follow-up
      Reporting a Change that May
      Affect Your Extra Help With
                                                                                     Y- the last four
    Medicare Prescription Drug Plan             1,300                   N
                                                                                          digits
    Costs Subsidy Changing Events
        SSA-1026-OCR-SM-SCE
     Review of Your Eligibility for
        Extra Help with Medicare
                                                                                     Y- the last four
      Prescription Drug Plan Costs             225,000                  N
                                                                                          digits
     Redeterminations SSA-1026-
             OCR-SM-REDE
   Title II Benefit Rate Increase Cost-
                                              45,954,959                N                   N
          of- Living Adjustment




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                       B-9
           Appendix C – AGENCY COMMENTS




                                               SOCIAL SECURITY
 MEMORANDUM

Date:      September 11, 2013                                                              Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Social Security Numbers on Notices in the Online
           Retrieval System” (A-02-13-13040)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to

           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)                   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SOCIAL SECURITY NUMBERS ON NOTICES IN THE ONLINE
RETRIEVAL SYSTEM” (A-02-13-13040)

We take great care in protecting the integrity of the Social Security number (SSN) and our
beneficiaries’ personal information. We are always looking for opportunities to increase this
protection. To that end, we have removed SSNs from benefit checks and some of the
approximately 350 million notices we send each year.

However, we have a fundamental business need to use the SSN in most correspondence to better
serve our beneficiaries. For this reason, many of the notices stored in our Online Retrieval
System (ORS) include SSNs. ORS allows us to view these notices when beneficiaries contact us
with questions. ORS also allows us to reprint, send, and save notices addressed to beneficiaries.

Recommendation 1

Re-evaluate and document the assumptions used to develop the Agency’s cost estimates to
remove SSNs on notices.

Response

We understand this recommendation to address two issues. First, is for us to re-evaluate our
assumptions in order to develop an accurate assessment of the time staff needs to handle calls
from beneficiaries who do not recall their SSNs. We disagree with re-evaluating our
assumptions. We do not as a general practice capture the time it takes for staff to handle calls
from beneficiaries who do not know their SSNs, and we do not have the resources to conduct a
study of the actual time needed.

The second issue is to address documenting our assumptions because we did not provide detailed
documentation on how we developed our cost estimates. We agree and expect by the end of
calendar year 2013 to provide updated documentation detailing how we developed our cost
estimates.

Recommendation 2

Research cost-effective ways the Agency can limit SSNs on notices while still allowing for ORS’
current functionality.

Response

We agree. We will convene a cross-component workgroup in fiscal year 2014 to research cost-
effective alternatives.




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)               C-2
Appendix D – MAJOR CONTRIBUTORS
Tim Nee, Director, New York Audit Division

Christine Hauss, Audit Manager, New York Audit Office

Renalda Stallworth, IT Specialist

Bosede Olaogun, Program Analyst




Social Security Numbers on Notices in the Online Retrieval System (A-02-13-13040)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
